No.

31n Wyt Supreme Court of tfje fHmtetr States
Shiyang Huang, petitioner
v.
Brian Spector, James McGonnigal, Randolph
Jefferson Cary III, Robin D. Porter, William R.
Porter, individually and on behalf of all others
SIMILARLY SITUATED, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF COMPLIANCE
Pursuant to this Court’s Rule 33.1(h), I hereby certify that the Petition for Certio­
rari contains 5,730 words, excluding parts of the petition exempted by Rule 33.1(d).
Pursuant to 28 U.S.C. § 1746,1 declare under penalty of perjury that the foregoing
is true and correct.
Executed on August 27, 2021.
/s/ Shiyang Huang_____
Shiyang Huang
2800 NW Engler Ct.
Topeka, KS 666U
(81b) 669-1858
defectivesettlement@gmail. com

